No. 20-255
IN THE

Supreme Court of the United States
MAHANOY AREA SCHOOL DISTRICT,
v.

Petitioner,

B.L., A MINOR, BY AND THROUGH HER FATHER,
LAWRENCE LEVY, AND HER MOTHER, BETTY LOU LEVY,
Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit
CERTIFICATE OF SERVICE
I, William M. Jay, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 that I have, this 31st day of
March, 2021, served the Brief for the Independent Women’s Law Center as Amicus
Curiae Supporting Respondents upon each party separately represented in this
proceeding by causing three copies of the same to be delivered to counsel of record at
the addresses listed below:
Lisa S. Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
lblatt@wc.com

Witold J. Walczak
ACLU of Pennsylvania
P.O. Box 23058
Pittsburgh, PA 15222
vwalczak@aclupa.org

Counsel of Record for Petitioner

Counsel of Record for Respondents

Pursuant to Supreme Court Rule 29.3, electronic copies of the amicus brief
are being transmitted to counsel of record at the email addresses listed above. I
further certify that all persons required to be served have been served.
In addition, I certify that pursuant to Supreme Court Rule 29.7, I have
caused electronic copies of the brief to be filed with the Clerk.

March 31, 2021
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N Street, NW
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4190
Counsel of Record for Amicus Curiae

